<html>
<title> - NOMINATION OF ROSS O. SWIMMER</title>
<body><pre>[Senate Hearing 108-22]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-22

 
                     NOMINATION OF ROSS O. SWIMMER

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

CONFIRMATION HEARING OF THE NOMINATION OF ROSS O. SWIMMER TO BE SPECIAL 
        TRUSTEE FOR AMERICAN INDIANS, DEPARTMENT OF THE INTERIOR

                               __________

                           FEBRUARY 12, 2003
                             WASHINGTON, DC


                      U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2003
85-179 PDF 

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Carson, Hon. Brad, U.S. Representative from Oklahoma.........     4
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     2
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     2
    Nickles, Hon. Don, U.S. Senator from Oklahoma................     3
    Russell, Majel, attorney and consultant, Intertribal 
      Monitoring Association.....................................    19
    Sangrey, Richard, acting chairman, Intertribal Monitoring 
      Association................................................     8
    Swimmer, Ross, nominee to be Special Trustee for American 
      Indians, Department of the Interior........................     6

                                Appendix

Prepared statements:
    Sangrey, Richard.............................................    23
    Swimmer, Ross (with responses to questions)..................    29


   CONFIRMATION HEARING ON THE NOMINATION OF MR. ROSS O. SWIMMER AS 
 SPECIAL TRUSTEE FOR AMERICAN INDIANS, U.S. DEPARTMENT OF THE INTERIOR

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
room 485, Senate Russell Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, Johnson, and Thomas.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning. The Committee on Indian Affairs 
will be in session.
    Welcome to the committee's first hearing of the 108th 
Congress. Congressman Brad Carson will be making an 
introduction of Mr. Swimmer today, and speak, of course, in 
favor, and Senator Nickles will too. Before they make their 
statements, the vice chairman and I will make out statements. 
Do you have a schedule that is going to allow you to stay here 
for a few minutes? Okay.
    On February 4, 2003, President Bush submitted to the Senate 
the nomination of Ross Swimmer to be Special Trustee for 
American Indians, an office located within the Interior 
Department. Mr. Swimmer is an enrolled member of the Cherokee 
Nation of Oklahoma. As we heard from several of his friends, 
Ross Swimmer has had quite an extensive career.
    Having known him myself for a good number of years since he 
was with the Department of the Interior once before when I 
first came in, I asked him somewhat jokingly, are you sure you 
want to do this? Are you sure you want to come back? He is 
sure, and that is good enough for me, but he certainly has an 
extensive background. He has practiced law. He has been a 
banker. He has been a general counsel. He was elected Principal 
Chief of the Cherokee Nation. He was a CEO of the Cherokee 
Nation Industries, and later founded the Cherokee Group. He was 
also cochairman of President Reagan's Commission on Reservation 
Economies and was Assistant Secretary of Indian Affairs between 
1985 and 1989.
    Currently, Mr. Swimmer is the Director of the Office of 
Indian Trust. If he is confirmed, which I fully expect, he will 
be the third special trustee in 8 years, which does not bode 
well for the job description.
    We have received numerous letters regarding this nominee. 
Most have been favorable, and in all honesty, some have been 
opposed. That is to be expected. These and other letters that 
are received in the next 2 weeks will be made part of the 
record.
    At the confirmation hearing of Tom Slonaker I expressed 
some frustration of the pace of the trust reform. Here we are 2 
years later and, very frankly and I am not impressed with what 
has occurred since. The Trust Reform Task Force has failed. The 
Cobell litigation continues. The Indian account holders have 
not received a penny, although I have to say the attorneys for 
the plaintiffs have received over $1 million, which tells me at 
least some people would like to keep this going on forever. I 
am sure that does not make them happy, but that is my view on 
it. The Federal Government continues to spend hundreds of 
millions of dollars a year on the litigation and in trying to 
upgrade the systems. I think we certainly need a very strong 
hand and strong leadership and a new direction for trust 
reform.
    So I am anxious to hear from Mr. Swimmer and the witnesses 
today. I will tell all members that are here with us today that 
it is not my intention to take a vote on this nominee today, 
but do hope to move it through as quickly as we can.
    Senator Inouye, did you have a statement you would like to 
make?

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. Thank you very much.
    I wish to join you in welcoming our colleagues from 
Oklahoma, the distinguished senior Senator from the State, 
Senator Nickles, and Congressman Brad Carson, as we meet to 
consider the President's nomination of Ross Swimmer to serve as 
Special Trustee.
    I also wish to welcome our old friend Ross Swimmer to the 
committee today. Over the years, this committee has worked with 
Mr. Swimmer on a variety of issues, and we look forward to 
working with you again, sir.
    Thank you.
    The Chairman. Senator Johnson, did you have an opening 
statement?

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman.
    Chairman Campbell, Vice Chairman Inouye and members of the 
committee, I appreciate holding this hearing today. The tribes 
from my home State of South Dakota are deeply impacted and 
concerned about the present and future challenges faced by the 
Department of the Interior, Bureau of Indian Affairs, and the 
Office of Special Trustee.
    By law, the Federal Government must protect the interests 
of tribes and its members as their trustee. The facts have 
demonstrated that the Federal Government in fact has not lived 
up to its responsibilities to tribes. Understandably, many 
tribes are angered by the fact that the trust fund accounting 
problems are still not yet remedied. Perhaps born out of the 
frustration, many tribes are expressing, frankly, a lack of 
faith in Mr. Swimmer's ability to turn the current situation 
around. Many of the tribes' concerns are longstanding and I 
feel compelled to address them at this time.
    The first concern stems from the fact that Mr. Swimmer 
appears to be caught in an inherent conflict. I understand that 
as Director of the Office of Indian Trust Transition, Mr. 
Swimmer is largely responsible for the Fiduciary Obligations 
Compliance Plan submitted last month by the Department of the 
Interior, in accordance with an order by Judge Lamberth.
    I am concerned by the appearance, if not the reality, of 
conflict of interest created by Mr. Swimmer's past involvement 
with trust reform. In his current role, Mr. Swimmer finds 
himself largely defending the Department's actions in 
litigation. If he is confirmed, he must turn around and then 
serve as many of the plaintiffs' Special Trustee. I hope to 
hear from Mr. Swimmer today regarding how he intends to 
reconcile that conflict.
    My second concern regards whether Mr. Swimmer intends to 
utilize an appropriate trust standard. Pursuant to the 1994 
Act, the Special Trustee is charged with the duty of monitoring 
the reconciliation of tribal and individual Indian money trust 
accounts to ensure that the Bureau provides the account holders 
with a fair and accurate accounting of all Trust accounts. If 
the Department assumes that tribal accounting claims must go 
through an administrative review, this could mean that Mr. 
Swimmer will be in charge of determining that the accountings 
provided are fair and accurate. This would be the 
responsibility of the same individual who has advocated for the 
privatization of trust management outside the government, 
without the government first providing an accounting. Once 
again, there are concerns about conflict of interest.
    My final concern regards consultation. I am hopeful that 
Mr. Swimmer and the Department have learned the lesson of 
BITAM. Consultation is of paramount importance to the tribes. 
Tribes want to be consulted before the government takes action. 
Without consultation, it is simply impossible to know whether 
the trust reform program appropriately serves tribal interests.
    I look forward to hearing from Mr. Swimmer and the witness 
today. I hope today's hearing will help to continue the 
dialogue between the Department and the tribes relative to 
these important issues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson.
    Now we will turn to Senator Nickles for his introduction, 
and then to Congressman Carson.

   STATEMENT OF HON. DON NICKLES, U.S. SENATOR FROM OKLAHOMA

    Senator Nickles. Mr. Chairman, thank you very much. It is a 
pleasure for me to be with you again on this committee. Senator 
Inouye and Senator Johnson, it is a pleasure.
    I am very happy today to introduce my friend, a person I 
have had the pleasure of knowing, working with and respecting 
for many years. I have had the pleasure of knowing Ross Swimmer 
for more than 20 years.
    Senator Johnson, the President could not have picked a 
better person for maybe one of the most difficult, thankless 
jobs in Government. We all know that these trust management 
funds have been a mess for a long time. The President could not 
have picked a better person anywhere in the country, in my 
opinion, than Ross Swimmer, to help resolve and solve some of 
these questions. Some people say it is insolvable, but I say, 
with Oklahoma having the second-largest Indian population in 
the Nation, that Ross Swimmer has the experience to help solve 
the problems.
    Ross Swimmer has the experience. He has been Principal 
Chief of the Cherokee Nation for 10 years, one of the largest 
tribes in the Nation. He has been Assistant Secretary of the 
Interior for many years, in charge of Indian Affairs. He also 
has a private sector background. He has been a banker. He has 
been head of Cherokee Nation's Industries, a multimillion 
dollar company employing a lot of Native Americans. He is a 
member of one of the most prestigious law firms in the State of 
Oklahoma.
    Those assets, attributes, qualifications, all of which are 
vitally important to resolving and untangling some of the very 
difficult things that we have in Indian trust funds and 
management of funds.
    Mr. Chairman, I am delighted to be here to recommend 
wholeheartedly my friend Ross Swimmer for this very difficult 
job. I appreciate your having the hearing. I appreciate your 
moving the nomination very quickly. This is a job that we need 
an individual such as Ross Swimmer to take this responsibility 
and meet this challenge head-on. So it is a pleasure for me to 
join the committee today to recommend his confirmation.
    The Chairman. Thank you for your statement. Depending on 
your schedule, I invite you if you have the time to sit with us 
here at the dais if you would like. We would enjoy having you.
    Senator Nickles. Thank you.
    The Chairman. Now, we will turn to Congressman Carson, who 
in addition to being a Congressman from Oklahoma is also a 
member of the Cherokee Tribe, too--one of the two House Members 
who belong to a federally recognized tribe. Welcome, and please 
proceed.

    STATEMENT OF HON. BRAD CARSON, U.S. REPRESENTATIVE FROM 
                            OKLAHOMA

    Mr. Carson. Thank you, Chairman Campbell, and good morning 
to you, to Vice Chairman Inouye and to Senator Johnson as well.
    I want to join with the distinguished Senator from 
Oklahoma, Senator Nickles, in thank you for having this hearing 
today, and to join him in offering my support for the 
nomination of Ross Swimmer to the position of Special Trustee 
for the Office of Special Trustee for American Indians within 
the Department of the Interior.
    Like me, as you mentioned, Mr. Chairman, Mr. Swimmer is an 
enrolled member of the Cherokee Nation. He hails from the 
Second District of Oklahoma, which I have the pleasure of 
representing in Congress. Many tribes in my District--indeed, 
my District is more Native American than any in the entire 
country--but many tribes, including the Cherokee Nation, 
support the nomination of Mr. Swimmer.
    We are pleased today to be joined by his wife, Margaret, 
who is sitting behind me, who is one of the most distinguished 
lawyers in Oklahoma and practices for a very well known and 
large firm in the State, too.
    As everyone in this room knows, the responsibilities of 
Special Trustee are daunting, to say the least. Accounting for 
Indian trust moneys has been an insurmountable challenge to 
this Administration and to previous Administrations. While, 
like Senator Nickles, I do not envy the task that is being put 
on Mr. Swimmer, I do admire him for once again answering the 
call to service to help sort through the challenges in managing 
and accounting for Indian funds held in trust by the Federal 
Government.
    Mr. Swimmer's experience in the public and private sectors 
make him uniquely suited to confront Indian trust fund 
management and accountability. On the tribal level, Mr. Swimmer 
has served three successive terms as the Principal Chief of the 
Cherokee Nation, the second-largest tribe in the country. On 
the Federal level, Mr. Swimmer served as the Assistant 
Secretary of Indian Affairs from 1985-89. In the private 
sector, as Senator Nickles outlined, Mr. Swimmer served as the 
president of two banks in Oklahoma, the First National Bank of 
Tahlequah and the First State Bank of Hulbert.
    Without a doubt, the Department of the Interior's Indian 
Trust management operations must be brought into the 21st 
century. This will require a concerted effort by individuals 
knowledgeable about Indian trust funds from the tribal and from 
the Federal perspective. I believe Mr. Swimmer's professional 
background brings to the Special Trustee position a combination 
of experience and knowledge necessary to confront the task of 
improving the accountability and management of Indian trust 
funds. Indeed, I would dare say there are few people in the 
entire country, much less Indian Country, who combined the 
unique political, legal and financial experience that Mr. 
Swimmer offers us.
    I certainly respectfully request that this committee 
support the nomination of Ross Swimmer as Special Trustee for 
American Indians. I believe that all of the many valid concerns 
raised by the committee today, especially Senator Johnson, will 
be well addressed in forthcoming years by Mr. Swimmer in this 
position.
    I thank the committee for their indulgence.
    The Chairman. Thank you for your very positive statement. 
Congressman Carson, if you can stay, please do so. If you 
cannot, I would just also remind you if you have not joined the 
American Indian Caucus yet, please do so.
    Mr. Carson. I am vice chairman over on the House side, 
Senator, so thank you so much.
    The Chairman. Thank you.
    Since we only have one person on the first panel and one on 
the second, I think I will ask both of them to take seats at 
the table the same time. That is, Richard Sangrey, the acting 
chairman of the Intertribal Monitoring Association from 
Albuquerque. Welcome, Richard. And of course, Mr. Swimmer, our 
nominee.
    Mr. Swimmer, perhaps we ought to take your testimony first. 
If you would go ahead and proceed, we will follow with Mr. 
Sangrey, then we will ask questions in different rounds.

STATEMENT OF ROSS O. SWIMMER, NOMINEE TO BE SPECIAL TRUSTEE FOR 
       AMERICAN INDIANS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Swimmer. Thank you, Mr. Chairman, and Senators on the 
committee. I greatly appreciate the opportunity of being here 
this morning. I also so greatly appreciate the committee 
setting this as one of the first actions for the new Congress.
    I think it goes without saying that the Senate Indian 
Affairs Committee is one of the most important to American 
Indians, if not the most important in the U.S. Government, the 
U.S. Congress, certainly. I think that has been demonstrated 
through the work of the staff. Your committee staff has been 
excellent in addressing issues in Indian Country and, of 
course, the Senators themselves have obviously taken a very 
active interest and worked very hard on these sometimes 
intractable issues that we face in Indian Country.
    I was asked to take this position in a moment of interest 
about 1 year ago. The Deputy Secretary and Secretary of the 
Department had visited with me on another matter. I happened to 
send a note back and said I had a lot of experience in the 
Trust matters, and I still have an interest in seeing that 
these issues get resolved; if there is anything I can do to 
help, let me know. They did. They invited me to come up and 
take on some of the issues and get involved once again. It has 
been a very interesting and rewarding experience.
    What I bring to this job and I think a result of my 
presence and ultimately the nomination that I received, is much 
about my background, Mr. Chairman. As both Senator Nickles and 
Congressman Carson mentioned, I have been in the Indian world 
working one side or the other, trying to support the 
sovereignty of tribes, trying to work out litigious issues, 
trying to reach settlement on claims of my own tribe as well as 
others, and even working in the area of recognition. That has 
been going on for nearly 30 years.
    During that time, I had also the privilege of having a law 
degree from the University of Oklahoma. I practiced private law 
for about 5 years before I was invited to join the Cherokee 
Nation Housing Authority, actually, as my first legal 
experience in Indian Country. That was in about 1971, I think.
    Following that, however, I was then invited by then-Chief 
W. W. Keeler of the Cherokee Tribe to become attorney for the 
Cherokee Nation. We were in the process of rebuilding the 
tribe, or building a tribe, as many of the tribes were in the 
early 1970's. We did not have a constitution. We had a one-
person government. The Principal Chief was it. I believed 
firmly that we needed a more democratic form of government. 
When I ran for election as Principal Chief in 1975, I ran on a 
platform that I would bring a constitution forward. It would 
have a tribal council. It would have a tribal court, and there 
would be a sharing of power with that Principal Chief. After my 
election, we did have a vote on the constitution. It was 
overwhelmingly approved, and I was elected to two more terms 
after that.
    My experience with the Cherokee Nation gave me my first 
insight into the trust funds matters. We had trust funds on 
deposit. We still do today. I looked and observed what was 
going on there, and I had some concern about that, mainly at 
that time with the investments. As a tribe, we pretty well 
managed our own accounting for those trust funds, but I was not 
always satisfied that the investment of the trust funds was 
what it should be. Following that experience with the Cherokee 
Nation, I was invited by Secretary Hodel and President Reagan 
to come to Washington as the Assistant Secretary, at which time 
I had many, many things on the agenda. The Indian Gaming Act 
was passed at that time. I began a move toward what became 
known as self-governance, trying to bring tribes to the next 
level of assuming leadership and responsibility over Federal 
funds that were being appropriated for their benefit. That was 
very successful, ultimately resulting in many tribes assuming a 
greater role and responsibility for the Federal funds.
    My role in the trust funds' management area really began in 
1988. I investigated the work that was being done in 
Albuquerque at that time. I looked at our accounting system, 
our investment system. I said, this cannot be tolerated. We 
have to do something. I inquired about what it would take to 
bring new technology into the BIA. I was told it would happen 
long after I left, because it would not be possible to do in 
the short time of that Administration. I said, what we need is 
an accounting system that is similar to what the private sector 
uses. I suggested we go out and try to find that system. It has 
been called various things, whether it is outsourcing, 
privatizing, or whatever. The idea was to bring an accounting 
system and an investment system into the BIA.
    I understand that after I left the Bureau, those efforts 
were not successful until much later. In fact, I believe it was 
in the late 1990's that an outside system was actually adopted 
for the Bureau of Indian Affairs trust fund accounting. It is a 
system today being operated by a company known as SEI 
Investment Company. They operate what is known in the industry 
as a Trust 3000 system. It is an accounting system. It is state 
of the art. It is now employed for the benefit of keeping 
account of trust funds, and I think is doing a very capable 
job. It was very similar to what I had intended to have happen 
back in 1988, but obviously it did not happen.
    With that kind of a background, I feel a need to do this 
particular job. I believe that I have the credentials to 
provide the oversight. I believe that I really have the 
commitment to seeing that we reach an end goal here of managing 
the trust funds, accounting for those trust funds, and making 
sure that Indian people that oftentimes even now rely on this 
income from the trust assets for their daily living, that they 
receive that income timely and in the proper amount.
    As for the tribes, I feel the same way, having been a 
tribal leader. It is our responsibility to see that those 
tribal trust funds are accounted for, paid out as the tribes 
desire, and are properly managed and vested, et cetera.
    So that is why, that and a love of public service and a 
willingness to finish the job that I think so many have started 
and tried to get moving. Things are happening in the 
Department. It is an advantage that I have. I have in the past 
year actually assumed the responsibility that was in the 
Special Trustee, and that was to file the quarterly court 
reports that the litigation requires. So I have been able to 
track a lot of the improvements and the reforms that in fact 
are going on.
    With that, I have a prepared statement I would like to 
submit for the record. I would be happy to take questions.
    [Prepared statement of Mr. Swimmer appears in appendix.:]
    The Chairman. Thank you. Your statement will be included in 
the record.
    Mr. Sangrey.

  STATEMENT OF RICHARD SANGREY, ACTING CHAIRMAN, INTERTRIBAL 
                     MONITORING ASSOCIATION

    Mr. Sangrey. Good morning, Mr. Chairman, Mr. Vice Chairman, 
members of the committee.
    My name is Richard Sangrey. I am a member of the Chippewa 
Cree Tribe, Rocky Boy's Reservation, Montana. I serve as 
chairman of the Intertribal Monitoring Association, ITMA.
    I thank you for this opportunity to testify on the 
nomination of Ross Swimmer for this position of Special Trustee 
for American Indians. ITMA was organized in 1990 to actively 
monitor the activities of the Federal Government to ensure fair 
compensation to tribes and individual Indians for the 
government's management of trust funds. ITMA membership 
includes 58 federally recognized Indian tribes who represent 
the largest trust fund accountholders in Indian Country.
    According to recent statistics, Indian tribes in the United 
States own the majority of the trust corpus currently under 
Department of Interior supervision and management. Our mission 
is to represent and advocate for these tribal governments.
    Before expressing ITMA's view on Mr. Swimmer's nomination, 
I would like to briefly list our recent and ongoing trust 
reform activities. We have been monitoring the proposals to 
restructure the Bureau of Indian Affairs as a method of trust 
reform. We are working with the tribal governments to develop 
alternatives to resolve the longstanding trust fund and asset 
management claims. We have been a presence for tribal 
governments in the recent trust reform efforts of the Joint 
Tribal/DOI Task Force. We are working to ensure that efforts to 
reorganize the Department of Interior not infringe on sovereign 
rights of tribal government to govern within their jurisdiction 
and not drive wedges between tribal governments and their 
members.
    For instance, we submitted an amicus brief in the Cobell 
case expressing concern that a third party receiver could 
result in an interference and infringement on tribal self-
government. We are now reviewing the amicus brief submitted by 
the National Congress of American Indians to the proposed plan 
for trust reform submitted by the Department of the Interior 
and the Cobell plaintiffs. We have drafted a trust reform 
legislative proposal that establishes strong trust standards 
for trust funds and trust asset management, strengthens tribal 
governance in the trust reform arena, while ensuring the 
protection of individual Indian rights over their assets and 
funds.
    We are also working on crafting legislation to resolve 
tribal trust fund and trust asset management plans, and we look 
forward to working closely with this committee on this critical 
piece of legislation.
    Regarding the current nomination of the Special Trustee for 
American Indians, the ITMA Board of Directors is committed to 
working closely with the person selected for this position. 
ITMA has determined that as an organization, it will take no 
position on the nomination of Ross Swimmer, and that each of 
our member tribes must act in their own capacity regarding his 
nomination.
    ITMA is committed to continue to work with the Office of 
the Special Trustee to improve the delivery of trust services 
to Indian tribal governments and to the individual Indian 
beneficiaries, and to make sure that Department of the Interior 
fulfills its trust obligation owed to these Indian 
beneficiaries.
    ITMA has compiled specific recommendations for the new 
Special Trustee with regard to what is known as the ``re-
engineering process'' currently underway at the Department of 
the Interior. Accordingly, ITMA recommends that OST undertake 
and implement the following: An effective and timely 
consultation method regarding the necessary responsibilities 
and business process element changes resulting from trust 
management re-engineering; systems that will effectively manage 
the critical data regarding all trust and restricted land 
managed by Department of the Interior, including a central data 
warehouse that protects and stores all of the land data, 
included but not limited to survey, ownership, heirship, value 
and all data regarding land encumbrances, codes and 
restrictions; a financial system that manages all collections, 
deposits, transfers, disbursements, imposition of third-party 
obligations and statements of earnings, investment instruments, 
and closure of all accounts that relate to the trust assets; a 
strategy of trust management, education and training so the 
Department of Interior employees, tribes and individual 
beneficiaries clearly understand the many business process 
elements and responsibilities of trust management.
    Training must include, but not be limited to obligations, 
controls, inputs, outputs and process flows related to the ways 
that the Office of Special Trustee conducts trust service 
management; a process for clear accountability for trust 
responsibilities, included but not limited to clear line of 
authority and responsibility, timeliness and dedication to 
quality work; programs that promote self-determination, 
governance and planning.
    One final, but critical issue relating to the funding ITMA 
receives from the Office of the Special Trustee. Our current 
level of funding is $350,000 in fiscal year 2002. Based on the 
increased level of trust reform activity, the Administration 
requested $450,000 in fiscal year 2003. ITMA has requested 
$500,000, based on our workload. As a minimum, we need the 
level requested by the Administration, and we need assurance 
from the Special Trustee that the Office of Special Trustee 
will distribute the full amount of funding appropriated by 
Congress. In prior years, the Office of Special Trustee has 
withheld a portion of our funding--$40,000 in fiscal year 
2002--and essentially required us to prove that we need the 
money. This additional level of scrutiny is not only 
unnecessary, but also has caused a strain on our relationship 
with the Office of Special Trustee.
    Therefore, ITMA is seeking specific report language in 
fiscal year 2003 and 2004 appropriation bills directing the 
Office of Special Trustee to release and distribute the full 
amount of funding appropriated by Congress for ITMA. We want to 
make sure that the new Special Trustee and the committee are 
aware of this past problem and are willing to work with us in 
resolving this issue.
    This concludes my remarks. Thank you.
    [Prepared statement of Mr. Sangrey appears in appendix.]
    The Chairman. Thank you.
    Before I go to some questions, I would like to invite 
Senator Thomas if he has an opening statement, if you would 
like to make that.
    Senator Thomas. Thank you, Mr. Chairman.
    I am sorry I am late. We had some other hearings going on. 
I did want to try to be here. Mr. Swimmer was good enough to 
stop by my office and we had a good long visit about the issue 
that is here. It is a very difficult one, certainly. There are 
lots of things we really have to come up and resolve. It seems 
to me that he is going to be a real addition to that.
    I just wanted to thank you for this hearing and thank Mr. 
Swimmer for being the candidate for this job.
    The Chairman. What we will do, since there are several of 
us up here, we will just do several rounds. I would like to 
start with Mr. Swimmer by telling you that we have a number of 
letters of support, one from the Cherokee Nation, the Creek 
Nation, the Choctaw Nation, the Chickasaw Nation, the Seminole 
Nation, the Quapaw Tribe, and the Confederated Salish and 
Kootenai Tribes of Montana. We also have letters of opposition 
from the Navajos, the Oglala Sioux, the Confederated Tribes of 
Warm Springs, the Iowa Tribe of Oklahoma, and the Absentee 
Shawnee.
    In looking at some of the letters, they almost always what 
some of them believed was your effort to privatize the trust 
funds. But as I listen to your opening statement, it seemed to 
me what you were doing was trying to use a model of the private 
sector and use that model within the government. Would you 
clarify what it was you really wanted to do?
    Mr. Swimmer. It has been discussed quite often in Indian 
Country, more of late than it was then, in my opinion. What I 
had hoped to do when I investigated where we were in the Bureau 
of Indian Affairs, as I said, it was apparent that we needed 
some modern systems. We also were being challenged as far as 
accounting, and that was as far back as 1988. There was concern 
about whether the accounting system that we were using and the 
investment system was adequate and was giving adequate 
information to the individual Indian participant.
    In terms of the investment, you may recall, those of us who 
were in the banking industry certainly do, during the 1980's it 
was not a particularly good time for banks. One of the comments 
that was made by the FDIC was that we always know where the 
next failed bank is; that is where the BIA keeps its money. 
That is not all bad, because the weaker banks were always 
bidding high for the BIA money. The statute on investments says 
that the Bureau can invest its funds in government securities 
or securities that are guaranteed by the government. As a 
practice, what was going on then was that several hundred banks 
would be called every couple of weeks and asked what they would 
bid on a $100,000 CD. Then the bank would fail and BIA would 
collect its money from the FDIC, and collect the interest 
sometime later, usually. It was not a system that I felt was 
very professionally run.
    What I suggested was that we look at an investment program 
more like the private sector would use, and that we go out and 
solicit advice and that we find private sector companies that 
could invest those funds on our behalf--not put money in 
somebody's bank, but be as an investment adviser, using 
investment systems for government securities that were common 
in the industry, and at the same time look at an accounting 
system that again is commonly used in the private sector, and 
see if we could not contract for those services.
    There were a couple of efforts made at that, but ultimately 
the company that bid on the contract was Security Pacific. I 
understand after I left the Bureau in 1989 that there were a 
lot of problems with that. I do not know what they were, but it 
apparently did not go anywhere. It actually became part of the 
whole issue with trust reform, which I think is positive from 
that point of view. The fact was, as I mentioned, we ultimately 
did manage to engage a firm that has a Trust 3000 system that 
we were able to put all the accounts on. We do today in the 
Special Trustee's Office, because the Office of Trust Funds 
Management was moved over to the Special Trustee's Office, they 
do manage those funds. Once the funds are received, they are 
properly invested. We have a government securities program that 
invests those funds in U.S. Treasuries, notes and bonds and 
what have you. From there, the accounting is done on the 
investments and the distributions are made to the individuals, 
as they should be.
    So that was really the genesis of those comments and the 
criticism. It just was an effort to modernize the systems at 
the time that the Bureau needed to.
    The Chairman. Basically, you are saying some of the things 
that we are actually doing now were out of those early 
suggestions in the 1980's.
    Mr. Swimmer. Absolutely.
    The Chairman. We have moved a long way through Senator 
Inouye's leadership, and perhaps mine too, in that we try not 
to move legislation, as an example, until we hear very 
carefully from the tribes about how they think it is going to 
affect them. When you made these suggestions in the late 
1980's, did you suggest that through the bureaucratic channels, 
or did you suggest that directly to the tribes?
    Mr. Swimmer. I think it was pretty widely discussed. I do 
not remember that there was a lot of comment in Indian Country 
about it. I did have a lot of discussion with then-Congressman 
Mike Synar. I would tell the committee, Mike Synar and I were 
personal friends. We were politically at odds, sort of at the 
extreme of the spectrum, but Mike was then the Congressman from 
the Second District of Oklahoma. He worked very closely with 
the Cherokee Nation while I was the Principal Chief. I had 
great respect for him.
    Where we differed was, when I proposed to him that I 
thought we should move into an accounting system, and that we 
should take the accounts that we have, that we know begin with 
those balances, and move forward. His opposition was that if 
you do that, you will never get to an accounting of the ones 
behind. He said,

    I do not think we should go forward with that plan to start 
a new accounting system now unless we are sure that we have 
accounted and have accurate opening balances for everyone.

    We had a difference of opinion on that. I thought that we 
should go ahead and get the system underway and do it 
correctly, at least for the future, while we went back and did 
the accounting. It was a friendly disagreement, but he felt 
strongly that it was a government responsibility, that the 
government should do this accounting, and that one way of 
making that happen was not to change systems until we had 
actually done the backward accounting as well.
    The Chairman. Thank you.
    As you know, we have had two previous Trustees. They both 
had a very difficult job and they both left, either resigned or 
were pressured. You can use whatever terminology you want, 
depending on your perspective. Each of them attributed their 
problems to the lack of independence within the Department; 
lack of independence from the Secretary. Can you tell the 
committee whether you think, first of all, that independence of 
the Trustee is necessary; and second, what in the Secretary's 
proposed reorganization gives you the confidence that you will 
have that independence?
    Mr. Swimmer. I think the Special Trustee must have the 
freedom to tell the Secretary there are problems, but the 
Special Trustee is obligated to seek solutions. He cannot 
simply say we have identified a problem. We are going to think 
of ways to get it fixed. I think there are a lot of ways, and 
part of it is because of the requirements of the Special 
Trustee. There are a lot of ways that the Special Trustee can 
interact with the Secretary. The statute even says that he must 
interact with the Director of the BIA. The Special Trustee has 
to be responsible for trust reform, and at the same time be 
able to get the backing of the Secretary and the cooperation. 
Again, I feel very strongly that the Secretary and the Deputy 
and the other leadership in the Department is very willing to 
do what is necessary to advance the trust reform and listen 
very closely to the Special Trustee.
    The Chairman. Let me ask one more before I turn to Senator 
Inouye. That is, there are several bills that have been 
floated. Senator McCain has a bill, S. 175, that would 
eliminate the Special Trustee's Office and replace it with a 
Deputy Secretary. Have you looked at that bill?
    Mr. Swimmer. Just in passing, I have.
    The Chairman. Okay.
    Mr. Swimmer. I am aware of it.
    The Chairman. I would appreciate it if you would look at it 
and give us some feedback on it. For a couple of years, I have 
been fooling with some language with a bill, too, that would 
basically--and I do not have a background in banking and I do 
not have a background in law--but I have a background in 
Indians, and I will tell you what, I have seen them die waiting 
for their money, and that is wrong. One of the things that I 
suggested, and Senator Inouye and I have talked about, is that 
in the private sector when you have a class action lawsuit, 
usually there is a provision in there somewhere that if people 
get tired of waiting for the class action lawsuit, they can opt 
out and settle individually. That was one of the ideas we were 
floating.
    Obviously, the attorneys for Cobell do not like that, but 
we have talked to the National Congress of American Indians and 
some individual tribes, and the Administration, and they all 
believe it has some merit. What would your thoughts be on that?
    Mr. Swimmer. I would say anything that helps resolve the 
litigation would be a tremendous help to Indian Country and 
certainly to the Department of the Interior. It is one of the 
most debilitating, if not the most debilitating issue as far as 
trust reform today. It certainly is a great concern throughout 
Indian Country.
    The Chairman. If we pursue that, I might ask you to help us 
with some of the language.
    I would like to turn to Senator Inouye. I do want to tell 
you before I do, however, that we do not need an answer for the 
letters of support, but in some of the letters of opposition to 
your nomination, I would like that to be part of the record. 
The letters are, but I am going to submit on behalf of the 
committee the questions that came up in those letters, and have 
you answer them in writing, if you would.
    Mr. Swimmer. Certainly.
    The Chairman. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman.
    Before I proceed, may I note the presence of the Deputy 
Secretary of the Department of the Interior, Secretary Griles. 
Welcome, sir.
    Both prior Special Trustees in testimony before this 
committee suggested that the reconciliation of trust accounts 
be conducted by an entity totally outside the Department. We 
have been told that there are some in the Department who feel 
that if the United States is to retain full responsibility and 
the legal liability for the management of the resources and 
accounting of assets, then the management and the assets must 
be conducted by the Department. What are your thoughts on this?
    Mr. Swimmer. I think that trying to take the, as I believe 
you are referring to, the historic accounting part out of the 
Department for trust funds management would be extremely 
difficult because of the interrelationship within the 
Department of all the other agencies that have an impact on 
Indian matters. I just do not believe that it would be a 
practical solution to attempt to take a portion of the 
accounting situation and try to separate it from the 
government--if that was the question. I may not have understood 
the question.
    Senator Inouye. So you believe that since the government is 
to retain full responsibility and legal liability, then the 
management should be in your hands within the Department?
    Mr. Swimmer. Yes.
    Senator Inouye. And not even part of that goes out?
    Mr. Swimmer. I am sorry?
    Senator Inouye. You do not expect even part of that to go 
out to a third party?
    Mr. Swimmer. No.
    Senator Inouye. Then don't you think that this would 
somehow be in conflict with the proposals that you have been 
supporting all along on self-governance and self-determination?
    Mr. Swimmer. I think that it should go out of the 
Department in terms of going to the tribes, and certainly the 
management of tribal trust funds I have always advocated should 
go to the tribes whenever and wherever possible. The 1994 
reform Act permits that to be done. I fully support that. I 
always have and always supported the concept of self-
governance.
    I firmly believe that all of the management of the trust 
assets should be under the management of the tribes whenever 
they feel comfortable in doing that. I am sure, as you have 
heard from some of the tribes, there are some that describe 
themselves as under the responsibility of the Bureau of Indian 
Affairs, and they do not accept self-governance. I think that 
is fine. I think that as long as we need to provide those 
services to those tribes directly, as direct service tribes, 
then we should do that. But as tribes gain the confidence, the 
ability and the desire to manage their trust funds and their 
trust assets, then I fully support that and believe we should 
provide whatever assistance to those tribes we can to help that 
happen.
    Senator Inouye. Mr. Swimmer, as former Assistant Secretary 
and an attorney, in your opinion is the legal standard that 
governs the United States when it manages assets held in trust 
similar to the standard that is applicable to a private 
fiduciary?
    Mr. Swimmer. In many respects, it is. As a trustee, you are 
always held to a high level of fiduciary responsibility. You 
have a duty of loyalty. You have a duty of care. You have a 
duty to communicate with your beneficiaries. All of those 
responsibilities and all of those trust standards that we talk 
about, however, are all modified by statute. The statutes that 
govern the Indian trust are many. An example of that is in the 
1994 reform Act, we have to provide an accounting under normal 
trust law to a beneficiary. The 1994 Act actually not only 
tells us to do an accounting, it says how to do that 
accounting. It specifically tells the Department what goes on 
that statement.
    There are other examples. For instance, in the prudent 
investor rule, normally a trustee is required to invest and do 
so prudently, but also with moderate amounts of risk so that 
the return to the beneficiary is reasonable. The statutes that 
we have to deal with there require that we invest only in 
government securities or the equivalent. That, of course, is 
not only the lowest risk investment, but it is the lowest 
return. Again, I suggest that tribes probably would do better 
using investment advice from the outside, taking their money 
and investing it, than what the Bureau can do because of those 
kinds of statutory restrictions.
    There is a common duty that says you cannot commingle funds 
with the trustee. We do that every day because we invest the 
beneficiary's money in government securities. As the trustee, 
we are putting it in the U.S. Treasury by law.
    So there are, in terms of the different normal trust 
standards that you might see in the private sector, they do 
exist in the Indian Trust as well, but generally are modified 
quite a bit by different statutes. We are much different. In 
the private sector, you tend to look at the trust document for 
guidance. If as a banker I have a trust set up, I usually have 
a document that backs it up and says, here are the things you 
are going to do; here are the beneficiaries; here is how I want 
you to distribute the funds; and here are the limitations on 
investing.
    In our world, it is governed by statute. We do not have 
that document, but we do have a set of laws and regulations 
that govern how we manage that trust.
    Senator Inouye. I asked that question because in my reading 
of the arguments before the Supreme Court in the Navajo case, 
the government suggests that it has no fiduciary standard, and 
that the United States has no legal obligations to the 
beneficiaries beyond that set forth explicitly in the law. 
Would you go along with that?
    Mr. Swimmer. It is an argument that is going on right now 
among the lawyers and in the litigation. I do believe that our 
trust is governed by statute, and I think that we are 
responsible to administer that trust in accordance with the 
statutes. Oftentimes, there can be different interpretations of 
a statute, about the degree of responsibility and whether we 
have exercised that responsibility appropriately, and that may 
be an issue in the Navajo case.
    I believe that we do have the fiduciary duty and that we 
have to overlay that duty with every statute and every 
regulation that we administer. We have to do it. If the law 
says we are to collect the money for beneficiaries, our duty is 
that we collect it timely and we invest it timely. We cannot 
simply collect it and leave it on somebody's desk for 1 month 
while it is not gaining interest.
    So we do have the additional responsibility as a trustee 
not only to collect, but to be sure that it is invested timely 
and appropriately accounted for. In that sense, I believe that 
the trustee does have the additional responsibility of being a 
fiduciary in the administration of the statutory 
responsibilities.
    Senator Inouye. It has been long suggested that the trustee 
should be able to exercise independent judgment. Do you believe 
that under the laws as they apply, you will be able to exercise 
independent judgment?
    Mr. Swimmer. Senator, I feel very comfortable about that. I 
really do believe that I can exercise independent judgment and 
give advice freely.
    Senator Inouye. We have been advised that you were deposed 
regarding the Department's issuance of coal leases to Peabody 
Coal in the Navajo case, and also as part of the Administration 
involved in the Cobell v. Norton case. Do you believe that this 
would in some way compromise you?
    Mr. Swimmer. I do not believe so. I do not believe I was 
deposed in the Navajo case. I would have to check the record on 
that. I was deposed in Cobell 1 month or so ago. I do not think 
it would have any impact on my judgment.
    Senator Inouye. These questions appeared in some of the 
letters that we have received.
    So you do not believe that your involvement in these cases 
would somehow compromise your ability to serve as an 
independent voice?
    Mr. Swimmer. I do not believe so. As far as Cobell, whoever 
is selected as Special Trustee is going to become involved very 
quickly. So the fact that I have given a deposition in that 
case I do not feel would compromise my ability at all to be 
objective and to exercise the duty as the Trustee.
    Senator Inouye. Thank you, Mr. Chairman. I have a few other 
questions, but I think there are others.
    The Chairman. Senator Thomas, did you have some questions?
    Senator Thomas. Yes; very briefly. I note that we had the 
Secretary up yesterday for a budget hearing in Energy. I 
noticed that the budget for your work here has gone up 
considerably--$130 million. What basically do you see happening 
different as a result of that budget?
    Mr. Swimmer. A significant amount of the budget increase 
for trust has to do with the backward accounting. It basically 
has to do with the Cobell litigation and to do the historic 
accounting. There are, however, substantial increases in parts 
of the budget that as part of the reorganization will permit 
the Office of Special Trustee to have trust officers, and these 
will be people trained in the law of trust and in the 
management of trust, to have trust officers actually located at 
the local and regional levels of the Bureau of Indian Affairs, 
basically to provide advice and guidance and to work 
collaboratively with the agency superintendents and the 
regional directors on trust issues, and infuse within the trust 
management the fiduciary relationship that sometimes is not 
present when decision are made; just to ensure that those 
issues are highlighted.
    The other major impact of the trust officers would be to 
have a link with the beneficiaries directly so that there is 
not a question when a beneficiary comes to an agency office, to 
know what their balance is in their account; when they last got 
paid; what assets do they own and where. Now, we have many 
Indian people who own properties on different reservations. The 
trust officer, we anticipate having that information available 
in one place so the beneficiary can get all of their questions 
answered.
    This is the first time that there has really been that 
established beneficiary relationship within the trust area. 
There is what we call sort of a one-stop shop where they can 
come to get the information.
    Senator Thomas. That is good. That is interesting. I am not 
as close to it as all of you are, but it just seems like those 
are things that should have been done a long time ago in terms 
of getting this resolved.
    In any event, having read over your resume and so on, you 
have done a number of things with the tribes, Cherokee Nation, 
and in your own professional life as a banker and a lawyer and 
secretary and so on. Special Trustee is a difficult job. What 
is your vision to be able to repair the relationship between 
Indian Country and the Federal Government?
    Mr. Swimmer. I am sorry?
    Senator Thomas. What do you think can be one of the most 
important things you can do to strengthen the relationship 
between Indian Country and the Federal Government?
    Mr. Swimmer. It is a whole host of things that need to 
happen. It needs to be in partnership. Whatever the Federal 
Government does, and particularly agencies that have a 
relationship with Indian tribes, whether the BIA, Indian Health 
Service, HUD, Department of Labor. There are a lot of different 
Federal agencies today that deal directly with Indian tribes. 
They need to have the partnerships there. They need to have the 
communication with the tribes.
    Within our agency at Interior, because we are the closest 
with agencies actually on the ground working with individual 
tribes, we need to have better working relationships; better 
communication; the word ``consultation'' is used constantly. We 
do need to have a method of doing that. I think what Chairman 
Sangrey had mentioned, having ITMA as a sounding board and 
advice to us is important. We spent a year working with the 
Tribal Task Force in consultation and negotiations.
    So I think the way that we improve that relationship is in 
partnership, developing a sense of trust in the larger sense, 
and then encouraging to the extent that we can--I just firmly 
believe this--the opportunity, the right to build on the self-
governance of Indian tribes, trying to help them succeed in 
managing their own affairs and being governments in the truest 
sense and doing things that are governmental.
    Senator Thomas. That is good. I certainly wish you well, 
and I am sure most everyone thinks this problem needs to come 
to some conclusion in the relatively near future. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I might suggest that one of the best ways I 
know of in repairing relationships between the feds and the 
Indian tribes is give them the money that we owe them. That 
would help. We can only do that with some pretty aggressive 
efforts on your part in your new position.
    I am going to submit the rest of my questions to you, Ross, 
in writing. As you probably know, Secretary Norton appeared at 
our Energy Committee hearing the other day on the fiscal year 
2004 budget. She informed us that the trust reform request for 
fiscal year 2004 is 17 times larger than the original request 
back in 1996. It is just skyrocketing. So I think that in this 
day when we are facing perhaps a 10-year deficit, as you 
probably know, it worries some of us when we talk about the 
potential of throwing more good money after bad and not making 
progress on finding a solution. So I would hope you make that a 
very strong part of your agenda.
    I am going to ask you to do something, maybe you might have 
to do it in conjunction with Deputy Secretary Griles, and maybe 
I already should have asked him, but February 26 is when we are 
going to do our budget hearing, too. By that time, I would like 
to have a breakdown, if I could, of the funds spent on both 
litigation and trust reform since 1995.
    In addition to that, because many of our people who are on 
both sides of the issue seem to be just almost locked out and 
doing verbal battle without very much resolve, I would like to 
know--as you know, there have been a number of mediation 
sessions. I would like to know what the results of those 
mediation sessions have been and the outcomes, too. We do get 
some periodic updates, but if you could provide the committee 
with the latest results of that, and the efforts that have been 
made to enter it under the supervision of Judge Lambert, too. 
If you could do that, I would appreciate it.
    Mr. Swimmer. Sure.
    The Chairman. Senator Inouye, did you have any more 
questions?
    Senator Inouye. Mr. Chairman, I would like to submit other 
questions, but I have just one more.
    In the 1994 Trust Fund Management Reform Act, it says that 
the Special Trustee must review departmental budget proposals 
and must certify in writing, and I quote:

    The adequacy of such requests to discharge effectively and 
efficiently the Secretary's trust responsibilities and to 
implement a comprehensive strategic plan.

    I am not certain whether you have had an opportunity to 
look over the historical accounting plan of individual Indian 
money accounts and the fiduciary obligations compliance plan, 
which was prepared by the Department as part of the Cobell 
case.
    Now, will these plans allow the Secretary to effectively 
and efficiently discharge her trust responsibilities regarding 
individual Indian money accounts at issue?
    Mr. Swimmer. The two plans that you refer to were 
developed, created specifically in response to particular 
litigation issues. The Department has been working for nearly 1 
year on developing a comprehensive trust asset management plan. 
That plan contains a going forward look at trust reform, trust 
improvement, doing a lot of things in a lot of areas, some of 
which are not covered by the litigation.
    The plan also takes into consideration the larger plan, the 
work that has been done during the past nine months on what we 
call the ``as is'' study, which is defining what all the trust 
business processes are and looking at them across the board 
from agency to agency and region to region, and then developing 
what we call the ``2-B'' model, how are we going to reconcile a 
lot of the differences in the way people do business. It is not 
meant to try to centralize management. It is meant to try and 
make the processes consistent wherever possible, which then 
helps us in bringing technology software to support those 
business processes.
    I think that plan will lay out the strategy and the 
business plan for the trust management for the long term. It 
should be finished sometime in the next couple of months. The 
process, however, of completing the ``as is'' and the 2-B and 
actually going out and making some of these improvements at the 
local level is estimated to take up to 2 years to fully 
implement.
    One of the most important things that we have to consider 
now in trust management is a very methodical, and sometimes it 
appears slow, approach, but it is to ensure that we use the 
money wisely that is being appropriated for this purpose, and 
that we are sure the kind of actions that we are taking are 
good for the future.
    Senator Inouye. So you are saying that as far as you are 
concerned, you would be able to certify that this new plan that 
you just described will allow the Secretary to effectively and 
efficiently carry out her trust responsibilities.
    Mr. Swimmer. I believe that is correct.
    Senator Inouye. Thank you very much, sir.
    The Chairman. Thank you, Mr. Swimmer. We really appreciate 
your appearance. We will now move to Mr. Sangrey. Let me start 
by asking you a little bit about your views on fractionated 
Indian lands. Most of us know that that is really one of the 
main obstacles to reforming trust management.
    A few years ago, we did move a bill that was signed into 
law to do a, for lack of a better word, a demonstration project 
among several tribes to allow them to consolidate some of their 
lands. It seemed to work very well, but we have not done that 
nationwide for tribes. What is your organization's belief on 
the best way to stop this fractionation, or how we should 
proceed to try to resolve it? If you have somebody with you, if 
she would identify herself for the record.
    Mr. Sangrey. Mr. Chairman, I have Majel Russell who is an 
attorney and consultant to ITMA who has been working on that.
    The Chairman. Ms. Russell, maybe you would like to answer 
that if you can.

     STATEMENT OF MAJEL RUSSELL, ATTORNEY AND CONSULTANT, 
               INTERTRIBAL MONITORING ASSOCIATION

    Ms. Russell. Yes; thank you. ITMA has just recently begun a 
dialog to discuss fractionation problems in Indian Country. We 
have identified several different issues that we would like to 
pursue. One of them is to do effective probate-type planning or 
assist tribes or to basically provide technical advice to 
tribes on effective probate planning. We would like to look at 
a uniform-type probate code that would work throughout Indian 
Country.
    Back to probate planning, estate planning, we would like to 
see tribes assist their members to do knowledgeable wills that 
would transfer lands on a one-over-one interest to the 
individual members, rather than the common wills or lack of 
wills which just generally create the fractionation problem 
even to a greater degree.
    So we are looking at some probate reform. We are also 
looking at technical advice to tribes on estate planning and 
development of wills.
    The Chairman. Okay. Thank you.
    I would tell you, then, that in another couple of weeks 
after the break, we will be introducing a bill that I hope 
addresses many of the things you have spoken about. Senator 
Inouye and I are trying to proceed with that. In a couple of 
weeks you will have that bill to look at. If you would give us 
some feedback on it, I would appreciate it.
    I talked early on a little bit about reaching settlement. I 
would like to know, on your Association, would they support 
congressionally led efforts to reach settlement by individual 
Indians?
    Ms. Russell. ITMA has been involved for a number of years 
on attempting to develop a legislative solution to claims from 
tribes for trust fund mismanagement. In fact, some years back, 
ITMA had developed H. Res. 4485 in an attempt to develop a 
mechanism that tribes could use for the settlement of claims. 
We have recently begun a dialog this past year through the Task 
Force, again with the Department of the Interior, to come up 
with a solution for tribes who would like to settle their 
claims.
    The Chairman. Basically, you are talking about the tribes' 
solutions and basically, as I understand you, it would delegate 
the management functions to the tribes.
    Ms. Russell. Yes.
    The Chairman. Is that right? Well, my original question 
really was, individual Indian people that would like to settle 
with the Federal Government, should they be allowed to opt out 
of the class action lawsuit? I guess that is the clearest way I 
could ask it.
    Ms. Russell. Intertribal Monitoring Association Board of 
Directors has discussed that issue at great length. There are 
some Board members who support that opportunity for individual 
Indians to have an opportunity to opt out of the class and 
resolve their claims, yes.
    The Chairman. Thank you.
    Senator Inouye.
    Senator Inouye. Mr. Sangrey, in your presentation and 
discussion with the chairman, you mentioned that you have 
recommendations for specific legislation involving the 
management of trust assets. If you do, can you share it with 
us?
    Mr. Sangrey. Yes, we will. We are having our final drafting 
session this afternoon and we will share it.
    Senator Inouye. We would like to look it over. Thank you 
very much.
    Thank you, Mr. Chairman. Are we ready to vote? [Laughter.]
    The Chairman. Yes; I am too, basically, but some members 
have asked us to hold this off until our next meeting to 
actually vote on your confirmation. So we will postpone that 
until the next meeting but from my perspective you should not 
have any trouble whatsoever. It will be right after the break, 
February 26. I look forward to your confirmation. I know you 
will do a terrific job. I look forward to working with you, and 
hope that you will have the patience of Job because it is going 
to require that, and the strength of Hercules, too, to get you 
through that new job. I hope that your wife will be able to put 
up with that. We had a terrific Oklahoman here. As you know, 
Neal McCaleb has resigned. He is also a personal friend as well 
as a professional colleague of mine. Interestingly enough, his 
wife is a personal friend of my wife, too, and they often 
discussed the trials that you go through when you are in 
Washington, D.C.
    Let me close by saying I admire you for offering to come 
back and try and resolve this problem we are having, Ross.
    Mr. Swimmer. Thank you very much, Mr. Chairman. I think we 
bring our wives to these sessions so that you will not beat up 
on us too badly. [Laughter.]
    The Chairman. Good thinking.
    Mr. Swimmer. I did want to respond to Senator Inouye's 
question once again. I honestly do not recall that I was 
deposed in that Navajo case. I would like to research that and 
I would like to keep that open. I will not say I was or I was 
not. I just do not remember it. But I appreciate very much, 
again, the committee's work, the staff of the committee. There 
are some legislative things that can be done, and certainly 
fractionation, I look forward to working with ITMA and others 
on those kind of issues, and probate issues. They are most, 
most critical to moving forward on the trust reform.
    The Chairman. Thank you, Mr. Swimmer and Mr. Sangrey, for 
appearing. This committee is adjourned.
    [Whereupon, at 12 noon, the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Richard Sangrey, Chairman, Intertribal Monitoring 
                   Association on Indian Trust Funds

    The Intertribal Monitoring Association on Indian Trust Funds (ITMA) 
is a representative organization of the following 58 federally 
recognized tribes: Central Council of Tlingit & Haida Indian Tribes, 
Kenaltze Indian Tribe, Metlakatla Indian Tribe, Hopi Nation, Tohono 
O'odham Nation, Salt River Pima-Maricopa Indian Community, Fort Bidwell 
Indian Community, Ewiiaapaayp Band of Kumeyaay Indians, Hoopa Valley 
Tribe, Yurok Tribe, Soboba Band of Luiseno Indians, Southern Ute Tribe, 
Coeur D'Alene Tribe, Nez Perce Tribe, Passamaquoddy-Pleasant Point 
Tribe, Penobscot Nation, Lac Vieux Desert Band of Lake Superior 
Chippewa, Sault Ste. Marie Tribe of Chippewa Indians, Grand Portage 
Tribe, Leech Lake Band of Ojibwe, Red Lake Band of Chippewa Indians, 
Blackfeet Tribe, Chippewa Cree Tribe of Rocky Boy, Confederated Salish 
& Kootenai Tribe, Crow Tribe, Fort Belknap Tribes, Fort Peck Tribes, 
Northern Cheyenne Tribe, Winnebago Tribe, Fallon Paiute-Shoshone 
Tribes, Walker River Paiute Tribal Council, Jicarilla Apache Nation, 
Mescalero Apache Tribe, Pueblo of Cochiti, Pueblo of Laguna, Pueblo of 
Sandia, Three Affiliated Tribes of Fort Berthold, Turtle Mountain Band 
of Chippewa, Absentee Shawnee Tribe, Alabama Quassarte Tribe, Cherokee 
Nation, Kaw Nation, Kiowa Tribe of Oklahoma, Muscogee Creek Nation, 
Osage Tribe, Quapaw Tribe, Thlopthlocco Tribal Town, Confederated 
Tribes of Umatilla, Confederate Tribes of Warm Springs, Cheyenne River 
Sioux Tribe, Sisseton-Wahpeton Sioux Tribe, Chehalis Tribe, 
Confederated Tribes of Colville, Quinault Indian Nation, Forest County 
Potawatomi Tribe, Oneida Tribe of Wisconsin, Eastern Shoshone Tribe, 
and the Northern Arapaho Tribe.
    Mr. Chairman and members of the Committee. As the newly elected 
Chairman of the Intertribal Monitoring Association Board of Directors, 
I thank you for this opportunity to testify on the nomination of Mr. 
Ross Swimmer, a presidentially appointed position created by the 1994 
Indian Trust Fund Management Act. My name is Richard Sangrey. I am a 
member of the Chippewa Cree Tribe from the Rocky Boy's Reservation in 
Montana and serve my tribe as Chief of Staff.
    ITMA is an intertribal organization composed of 58 tribes across 
the United States who organized in 1990 to actively monitor the 
activities of the Federal Government to ensure fair compensation to 
tribes and individual Indians for the mismanagement of trust funds. 
ITMA's membership consists of a large number of those tribes with 
significant funds and assets at stake in the trust reform debate. As 
statistics recently submitted to the Court in the Cobell v. Norton 
lawsuit confirm, the tribes in the United States own the majority of 
the trust corpus currently under Department of the Interior Management, 
although tribes have not been parties to the Cobell suit.
    ITMA's mission has evolved over the years to include the monitoring 
of the Federal Government's proposals to restructure the Bureau of 
Indian Affairs to address the trust mismanagement issues identified by 
the Cobell v. Norton lawsuit. ITMA has worked extensively with tribal 
governments to develop alternatives for settlement of tribal historic 
trust fund mismanagement claims and most recently has been a voice for 
tribal governments in the recent trust reform efforts of the Tribal DOI 
Task Force.
    Throughout this last year of heightened trust reform efforts, ITMA 
has been most concerned that reorganization of the BIA not infringe on 
tribal sovereign rights to govern lands within tribal jurisdiction. 
Additionally, ITMA has been most concerned that reorganization efforts 
do not drive wedges between tribal governments and their members. ITMA 
developed an amicus brief to the Court in the Cobell suit expressing 
concerns that a third party receiver could result in an interference 
and infringement on tribal self-government. Further, ITMA has joined 
with the National Congress of American Indians in the amicus brief 
submitted as a tribal response to the proposed plans for trust reform 
submitted by DOI and the Cobell plaintiff's.
    The Board of Directors of ITMA is committed to working with the 
Office of the Special Trustee of American Indians to improve the 
delivery of Trust services to Native American Tribes and the individual 
beneficiaries. ITMA believes that the OST can effectively resolve 
issues that have--and will--arise from the re-engineering process 
currently underway at the Department of the Interior. The following is 
a non-exclusive list of objectives that ITMA believes the Department of 
the Interior and the OST must implement if ``trust reform'' is to mean 
anything:

1. Establish and implement clear methods to account for the management 
        of Trust Funds, Trust Lands, Trust Assets and Trust Resources 
        by, at a minimum creating comprehensive Trust Fund, Trust Land, 
        Trust Asset and Trust Resource ownership, location, and use 
        inventories that provide a method for accounting to any 
        beneficiary Indian or tribe of what land is being effectively 
        managed, and where problems or exceptions require greater 
        attention.

2. Establish and implement reasonable methods for consulting with 
        Indian and Tribal beneficiaries to establish effective plans to 
        manage Trust Funds, Trust Assets, Trust Lands and Trust 
        Resources that implement the intent of the Indian or Tribe 
        where such implementation is reasonable.

3. Consult with each Indian beneficiary and Tribe in the management of 
        the Trust Funds, Trust Assets, Trust Land, or Trust Resources 
        managed by the Secretary, and implement the objectives 
        identified by the Indian Beneficiary or Tribe for any resource 
        managed for them to the extent practical.

4. Establish clear guidance on what functions with regard to Trust 
        Funds, Trust Assets, Trust Land and Trust Resources are 
        inherently executed by the Secretary and the OST, and how these 
        functions are to be executed by a Tribe upon the execution of 
        Tribal Compacting and Contracting agreements under P.L. 95-638 
        which establishes consistency in the execution of such 
        agreements.

5. Provide a yearly program of education and communication for the 
        Secretary's and the OST's Trust service delivery personnel as 
        well as for the beneficiaries, providing the Secretary's and 
        the OST's personnel, the relevant staff of Indian tribes, and 
        interested individual beneficiaries with an understanding of 
        the Secretary's and OST's role and responsibilities with 
        relation to the management of Trust Funds, Trust Land, Trust 
        Resources and Trust Assets.

6. Build a common data store for all Trust Funds, Trust Land, Trust 
        Resource and Trust Assets related information. Such a data 
        store shall, at a minimum operate in the following manner:

  <bullet> Provide a single method of entry for updates and 
        maintenance;
  <bullet> Avoid redundant or inconsistent data in multiple 
        systems;
  <bullet> Provide query capability by many organizational units; 
        and
  <bullet> Provide accurate information for reporting.

7. Establish a Memorandum of Agreement with each tribe regarding the 
        privacy to be afforded tribal family information.

8. Establish an office to coordinate investigative efforts intended to 
        establish the location of beneficiaries whose whereabouts are 
        unknown.

9. Create an office of Inter-Bureau Communication and Coordination to 
        oversee daily operations and facilitate communications and 
        issue resolution between each of the Secretary's bureaus on 
        issues related to the management of Trust Lands, Trust Assets 
        and Trust Resources.

10. Segregate the staffing and management of probate responsibilities 
        from all other Trust Funds, Trust Land, Trust Resource or Trust 
        Asset management activities to ensure that the decedent's 
        interests are appropriately balanced with overall Trust 
        objectives, while still providing for the use of integrated 
        data in probate matters.

11. Establish that the substantive laws or customs any Indian Tribe 
        relating to Probate shall apply first to provide for the 
        distribution of a decedent's estate. To the extent there are no 
        tribal laws or customs to apply, such descent shall be made in 
        accordance with the laws of the state in which the decedent 
        resided at the time of their death. Where relevant tribal law 
        or custom applies, and allows for estate planning methods to be 
        employed to avoid the need to probate estates it shall apply 
        and any Indian beneficiary shall have the right to use such 
        laws to avoid probate to provide for the distribution of Trust 
        Funds,.Trust Land, Trust Resources or Trust Assets; or where no 
        tribal law or custom applies, any Indian beneficiary shall have 
        the right to elect to provide for an estate plan for themselves 
        under the laws of the state of their legal residence that 
        includes providing for the distribution of Trust Funds, Trust 
        Land, Trust Resources or Trust Assets.

12. Consolidate all Indian beneficiary probate adjudication activities 
        into a single organization, moving all Deciding Officials into 
        a single organization to simplify and make uniform the 
        administration of Probate activities.

13. Establish uniform regulations to govern all probate adjudication 
        activities.

14. Implement integrated, nation-wide title and realty information 
        systems that accurately identify Trust Lands, Trust Resources, 
        and Trust Assets, and the complete ownership thereof, all legal 
        encumbrances (mortgages, life estates, etc.), and non-
        expiratory rights.

15. Create a single archive system based upon electronic information 
        (and where electronic information is not available, paper 
        information) provided by the Bureau that complies with Federal 
        record retention policies.

16. Streamline and consolidate, to the extent practicable, recordation 
        and encoding procedures, eliminating duplicate efforts and 
        data, in an effort to free resources to ensure that Trust 
        Funds, Trust Land, Trust Resource, and Trust Asset information 
        is maintained in a timely manner.

17. Eliminate redundant staff functions to eliminate inconsistencies 
        across systems and to reduce the existing backlogs.

18. Implement digital imaging technology at all levels under the 
        Secretary's and the OST's authority, using this technology to 
        maintain a complete and accurate record of Trust Funds, Trust 
        Lands, Trust Resources, Trust Assets and the ownership and 
        utilization of such funds, land, resources and assets.

19. Develop regulations that provide for an expedited procedure for the 
        acquisition of fee interests in Trust parcels.

20. Develop regulations that ensure beneficiary consultation, consent 
        and compensation for all rights of way, easements and mineral 
        access agreements that related to Trust Lands.
21. Establish a specific source of funds to address ``unperfected 
        Rights of Way,'' that will be used to remedy Unperfected Rights 
        of Way that negatively encumber Trust Lands.

22. Establish an office of beneficiary consultation and support 
        services that provides individual Indians and tribes with a 
        point of contract for all consultation questions regarding the 
        Secretary's management of Trust Funds, Trust Lands, Trust 
        Resources and Trust Assets.

23. Develop guidelines for beneficiary consultation to improve the 
        inherent partnership between the Secretary and beneficiaries.

24. Develop guidelines for appraising Trust Assets, Trust Lands, or 
        Trust Resources that defines appraisal principles, appraisal 
        terminology, the appraisal process, and the volatility of the 
        real estate market.

25. Implement Trust Assets, Trust Lands, or Trust Resources appraisal 
        training that all persons who work for the Secretary and who 
        deal with land valuations must attend. Such training must 
        include a written examination, and no person who scores below a 
        reasonable standard established by the Secretary shall appraise 
        Trust Assets, Trust Lands, or Trust Resources.

26. Develop guidelines and procedural manuals to provide more 
        specificity regarding the Forest Management Deduction process, 
        requirements and timelines.
27. Reform 25 C.F.R. part 163 to provide more specificity for 
        procedures and requirements of collecting Forest Management 
        Deductions.

28. Consult with Tribes to enhance the regulations, guidelines, 
        policies and manuals to include clear and specific roles, 
        procedures, formats, reporting and schedules for the oversight 
        of federally managed and tribally managed forestry programs.

29. With consultation from the Tribes, develop regulations that promote 
        Tribal control and self-determination while at the same time 
        ensuring the Secretary's obligation to provide oversight and 
        review of Indian Trust asset management programs.

30. Develop and implement regulations that adequately define rangeland 
        trust management.

31. Implement a Geologic Information System based management 
        information data base and reporting system for all Trust Lands, 
        Trust Assets, and Trust Resources.

32. Develop regulations that regularly monitor and audit the management 
        of Trust Lands, Trust Assets, and Trust Resources for 
        compliance with the principles of the Trust Responsibility 
        enunciated herein.

33. Consult with Tribes to develop comprehensive guidelines for the 
        uniform management of all rangeland under the Secretary's 
        jurisdiction.

34. Initiate a program of workshops for Tribes and individual Indians 
        that provides information about leading animal husbandry and 
        land management practices, assists in counseling and problem 
        solving.

35. Identify the most valuable Trust Lands, Trust Resources and Trust 
        Assets and develop specific strategies for the development of 
        this potential.

36. Create standard procedures and decision criteria for selecting 
        appropriate long-term encumbrance vehicles (lease, permit, 
        assignment, information agreement, etc.) for Trust Lands, Trust 
        Resources and Trust Assets that applies to and is enforced 
        within all Bureau regions. Develop standardized consent forms 
        that reinforce Indian Land Consolidation Act consent 
        requirements. Develop regulations to be published in 25 C.F.R. 
        162 subparts C and D (the Residential and Business subsections 
        currently ``reserved'' but blank'') that clarify procedures for 
        determining which encumbrance vehicles should be used in each 
        circumstance, and how such encumbrance is to be uniformly 
        documented.

37. Record monetary liens against lessees if rental payments are 
        delinquent.

38. Enforce against un-consented trespasses on Trust Lands.

39. Restructuring existing lease agreements upon renewal to meet the 
        obligations imposed by this statute and any regulations 
        promulgated hereunder. Nothing in this statute shall be 
        construed as terminating or invalidating an existing lease or 
        agreement related to Trust Land that was otherwise in 
        compliance with the regulations or practices of the Secretary 
        at the time of its signature.

40. Initiate formal information-sharing programs between the Bureau, 
        Tribes, contracted service providers, and Individual Indian 
        owners of agricultural lands.

41. Conduct a thorough review of key Federal statutes and regulations 
        which can negatively affect the management and use of Trust 
        Land, Trust Resources and Trust Assets and provide such report 
        to Congress and all Indian Tribes. Such report shall include 
        remedies to remove or refine those statutes and regulations in 
        conflict with the management of Trust Lands, Trust Assets, and 
        Trust Resources.

42. Develop regulations to delegate to Tribes the authority to provide 
        environmental assessments where such assessments are required 
        for the management of Trust Lands, Trust Assets, and Trust 
        Resources.

43. Standardize consent forms and develop a single set of criteria 
        triggering the performance of the consent process for the 
        leasing of agricultural Trust Lands.

44. Integrate agriculturally related billings and collections the 
        Integrated Trust Management system.

45. Develop new regulations that provide a more equitable approach to 
        funding Trust Asset development strategies among all tribes.

46. Review Trust Asset water resources to develop target groups, 
        focused in two areas:

  <bullet> In areas where water rights are most at risk of being 
        abused--develop rights communication, negotiation and 
        protection strategies.
  <bullet> Areas where water resources are most valuable to the 
        Trust or may be critical to the financial well-being of 
        beneficiaries--finance water resources development projects 
        proactively as part of an economic development strategy.

47. Reengineer, streamline, and standardize the Bureau minerals leasing 
        processes to conform with the principles set fort herein.

48. Update and standardize lease forms, and develop regulations that 
        create an integrated approach to minerals lease management with 
        common systems, data stores and a documented communications 
        plan.

49. Compile and publish all existing Memorandums of Understanding or 
        Agreement (an ``MOU/A'') related to the management of Trust 
        Lands, Trust Assets, and Trust Resources. This compilation 
        shall include an indication of applicability or category of 
        each MOU/A, a brief summary of contents, and a reference to who 
        is the designated responsible party under the Secretary for 
        each MOU/A.

50. Revise and establish clear guidelines for establishing bonding 
        levels for Indian trust mineral leases that address the 
        conflict between reclamation requirements and competitiveness 
        of Indian trust mineral assets.

51. Provide training to all persons who work for the secretary related 
        to bonding mineral leases to ensure that each person is 
        fascicle with and can enforce the bonding guidelines. The 
        Secretary shall establish a minimum of competence in this area, 
        and shall test all persons to oversee the bonding of mineral 
        assets. Only those persons to meet or exceed the Secretary's 
        standards shall be authorized to oversee bonding for mineral 
        leases for Trust Lands, Trust Assets, and Trust Resources.

52. Implement electronic document imaging and retrieval capabilities so 
        beneficiary documents and records can be scanned once and made 
        available to appropriate Secretarial staff nationwide on 
        demand.

53. Implement workflow or case management technology combined with 
        imaging capability to manage the information and processing 
        flow and ensure that essential steps and controls are taken, as 
        well as minimize process loops and rework. Decentralize account 
        maintenance through enhancements to information systems and 
        appropriate dual controls, so account administration authority 
        resides with designated field officials.

54. Develop methods to contract with private banking institutions to 
        accept lease payments, deposit such funds received , in 
        accounts, provide lock box services, and document the receipt, 
        storage and investment of funds, and transfer such 
        documentation to the Integrated Trust Management System.

55. Establish a centralized collection, deposit, and posting 
        information collection process for documenting the depositing 
        and posting of funds to beneficiary accounts in a timely 
        manner.

56. Develop the guidelines to determine when surveys of Trust Lands, 
        Trust Assets, and Trust Resources are needed, what type is 
        warranted, and who should perform the survey.

57. Inventory the survey needs for Trust Lands, Trust Assets, and Trust 
        Resources, with such data becoming a part of the Integrated 
        Trust Management system.

58. Coordinate with other bureaus under the DOI to centralize all 
        survey and land record keeping activities into one bureau under 
        the Secretary's direction. Create one unified automated land 
        information and record processing system that is compatible 
        with other record systems and easily accessible by everyone 
        needing the information. The system could include survey and 
        land ownership information and be integrated with other Federal 
        automated record systems, such as title systems. Encourage 
        Tribes to provide private survey records in the system so their 
        land information is included.

    Regarding the current nomination for the Special Trustee for 
American Indians, the ITMA Board of Directors is committed to working 
closely with the person selected for this position. ITMA has 
determined, that as an organization, it will take no position on the 
nomination of Ross Swimmer and that each of our member Tribes must act 
in their own capacity regarding his nomination. ITMA is committed to 
continuing to work with the Office of the Special Trustee to improve 
the delivery of trust services to Indian Tribal governments and the 
individual Indian beneficiaries and to make sure that the Department of 
the Interior fulfills its trust obligations owed to these Indian 
beneficiaries.
    One final but critical issue relates to the funding ITMA receives 
from OST. Our current level of funding is $350,000 in FY 2002. Based on 
the increase level of trust reform activity, the Administration 
requested $450,000 in fiscal year 2003; ITMA requested $500,000 based 
on our workload. At a minimum, we need the level requested by the 
Administration, and we need assurance from the Special Trustee that OST 
will distribute the full amount of funding appropriated by Congress. In 
prior years, OST has withheld a portion of our funding ($40,000 in FY 
2002) and essentially required us to ``prove'' that we need the money. 
This additional level of scrutiny is not only unnecessary but also has 
caused a strain in our relationship with OST. Therefore, ITMA is 
seeking specific report language in the FY 2003 and 2004 appropriations 
bills directing OST to release and distribute the full amount of 
funding appropriated by Congress for ITMA. We want to make sure that 
the new Special Trustee and this Committee are aware of this past 
problem and are willing to work with us on resolving this issue.
    Thank you for the opportunity to submit written and oral testimony. 
We look forward to continue working with the Office of Special Trustee 
and Congress.
[GRAPHIC] [TIFF OMITTED] T5179.001

[GRAPHIC] [TIFF OMITTED] T5179.002

[GRAPHIC] [TIFF OMITTED] T5179.003

[GRAPHIC] [TIFF OMITTED] T5179.004

[GRAPHIC] [TIFF OMITTED] T5179.005

[GRAPHIC] [TIFF OMITTED] T5179.006

[GRAPHIC] [TIFF OMITTED] T5179.007

[GRAPHIC] [TIFF OMITTED] T5179.008

[GRAPHIC] [TIFF OMITTED] T5179.009

[GRAPHIC] [TIFF OMITTED] T5179.010

[GRAPHIC] [TIFF OMITTED] T5179.011

[GRAPHIC] [TIFF OMITTED] T5179.012

[GRAPHIC] [TIFF OMITTED] T5179.013

[GRAPHIC] [TIFF OMITTED] T5179.014

[GRAPHIC] [TIFF OMITTED] T5179.015

[GRAPHIC] [TIFF OMITTED] T5179.016

[GRAPHIC] [TIFF OMITTED] T5179.017

[GRAPHIC] [TIFF OMITTED] T5179.018

[GRAPHIC] [TIFF OMITTED] T5179.019

[GRAPHIC] [TIFF OMITTED] T5179.020

[GRAPHIC] [TIFF OMITTED] T5179.021

[GRAPHIC] [TIFF OMITTED] T5179.022

[GRAPHIC] [TIFF OMITTED] T5179.023

[GRAPHIC] [TIFF OMITTED] T5179.024

[GRAPHIC] [TIFF OMITTED] T5179.025

[GRAPHIC] [TIFF OMITTED] T5179.026

[GRAPHIC] [TIFF OMITTED] T5179.027

[GRAPHIC] [TIFF OMITTED] T5179.028

                               <greek-d>

</pre></body></html>
